                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106
February 1, 2012

Report Number: A-07-11-00369

Ms. Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
P.O. Box 8190
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Pension Costs Claimed for Wisconsin Physicians
Service Insurance Corporation for Fiscal Years 1990 to 2007. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00369
in all correspondence.

                                             Sincerely,




                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Jared A. Adair

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





          REVIEW OF 

 PENSION COSTS CLAIMED FOR 

WISCONSIN PHYSICIANS SERVICE 

 INSURANCE CORPORATION FOR 

  FISCAL YEARS 1990 TO 2007 





                       Daniel R. Levinson

                        Inspector General 


                         February 2012 

                         A-07-11-00369 

                         Office of Inspector General
                                          http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND 


Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). In addition, WPS administered Medicare operations under a Medicare
administrative contractors (MAC) contract with CMS.

During the audit period, WPS had four defined benefit pension plans. This report will address
the pension costs claimed for all four of these pension plans.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that WPS claimed for Medicare
reimbursement for fiscal years (FY) 1990 through 2007.

SUMMARY OF FINDING

WPS claimed $934,847 of unallowable Medicare pension costs for FYs 1990 through 2007.
This overstatement occurred primarily because WPS calculated the indirect (“Other” segment)
pension expense using Financial Accounting Standard pension expense, a standard intended for
financial reporting. Using this standard, WPS claimed $25,338,059 in Medicare reimbursement.
We calculated allowable pension costs for this period in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $24,403,212, a difference of $934,847.

RECOMMENDATIONS

We recommend that WPS:

   	 reduce its Final Administrative Cost Proposal (FACP) pension costs by $934,847 or
      refund this amount to CMS and

   	 ensure that future pension cost claims are in accordance with the Medicare contracts.




                                                i
AUDITEE COMMENTS

In written comments on our draft report, WPS concurred with our report but offered two
exceptions.

   	 WPS disagreed with our treatment of certain participants as part of the “Other” segment
      instead of as part of the “Direct” segment in our related segmentation report
      (A-07-11-00357). WPS said that based on the “appropriate treatment” of these
      participants, the allowable pension costs claimed for this current audit should have been
      increased by $88,000.

   	 In addition, WPS stated that it used a different method to allocate costs from the “Other”
      segment to Medicare than the method we had employed. WPS said that its method was
      reasonable and more accurate than our method and should have been the basis to allocate
      costs to Medicare. According to WPS, its allocation method would increase allowable
      costs during the audit period by $322,000.

WPS added that on the basis of these exceptions, “… WPS asserts that allowable cost during the
audit should be increased by $410,000 from $24,403,212 to $24,813,212. This would result in
WPS needing to reduce its FACP pension cost by $524,847.”

WPS’s comments are included in their entirety as Appendix F.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing WPS’s comments, we maintain that our findings and recommendations remain
valid. We computed the pension costs based on the identification of the Medicare segment and
the segmentation of the pension plan assets (as discussed in our related segmentation report).
Therefore, the allowable pension costs for the Managerial Retirement Pension Plan that we
determined for the current review are valid and require no change.

Furthermore, the FAR determines the allowability of the pension costs claimed for Medicare
reimbursement. WPS’s methodology for computing the allowable pension costs did not comply
with the provisions of the FAR and therefore did not constitute a reasonable basis for
determining costs. By contrast, our computations of the allowable pension costs complied with
the provisions of the FAR.




                                               ii
                                                   TABLE OF CONTENTS 




INTRODUCTION..................................................................................................................... 1 


          BACKGRO"UND ............................................................................................................ 1 

               Wisconsin Physicians Service Insurance Corporation and Medicare .......... ,...... 1 

               Medicare Reimbursement of Pension Costs ....................................................... 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 2 

               Objective .............................................................................................................2 

               Scope ................................................................................................................... 2 

               Methodology .......................................................................................................2 


FINDING AND RECOMMENDATIONS .............................................................................. 3 


         FEDERAL REQUIREMENTS .......... .............................................. .. ............................. 3 


         "UNALLOWABLE PENSION COSTS CLAIMED ....................................................... 3 


         RECOMMENDATIONS ................................................................................................ 4 


         AUDITEE COMMENTS ................................................................................................ 4 


         OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 5 


APPENDIXES

         A: 	 ALLOCABLE MEDICARE PENSION COSTS FOR THE EMPLOYEE PENSION 

              PLAN FOR WISCONSIN PHYSICIANS SERVICE INSURANCE 

              CORPORATION FOR CALENDAR YEARS 1990 THROUGH 2007 


         B: ALLOCABLE MEDICARE PENSION COSTS FOR THE MANAGERIAL 

            PENSION PLAN FOR WISCONSIN PHYSICIANS SERVICE INSURANCE 

            CORPORATION FOR CALENDAR YEARS 1990 THROUGH 2007 


         C: ALLOCABLE MEDICARE PENSION COSTS FOR THE REPRESENTED 

            EMPLOYEES' RETIREMENT INCOME PENSION PLAN FOR WISCONSIN 

            PHYSICIANS SERVICE INSURANCE CORPORATION FOR CALENDAR 

            YEARS 1998 THROUGH 2007 


         D: ALLOCABLE MEDICARE PENSION COSTS FOR THE MANAGERIAL 

            RETIREMENT PENSION PLAN FOR WISCONSIN PHYSICIANS SERVICE 

            INSURANCE CORPORATION FOR CALENDAR YEARS 1998 THROUGH 2007 





                                                                    111
                                               INTRODUCTION 


BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). With the award to WPS of the CMS Parts A and B Medicare administrative
contractors (MAC) Jurisdiction 5 contract, WPS acquired Mutual of Omaha’s Medicare Part A
business segment in November 2007.1

During the audit period, WPS had four defined benefit pension plans. The Employees’ Pension
Plan and the Managerial Pension Plan were ongoing pension plans that we reviewed in the prior
audit.2 On August 1, 1998, WPS established two additional defined benefit pension plans: the
Represented Employees’ Retirement Income Plan and the Managerial Retirement Program for
Michigan, Illinois, and Minnesota Employees of WPS. Effective December 31, 2007, WPS
merged the Represented Employees’ Retirement Income Plan and the Managerial Retirement
Program for Michigan, Illinois, and Minnesota Employees of WPS and renamed the plan WPS
Managerial Retirement Program for Selected Locations. This report will address the pension
costs claimed for all four pension plans.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to MACs between October 2005 and
October 2011. Most, but not all, of the MACs are fully operational; for jurisdictions where the MACs are not fully
operational, the fiscal intermediaries and carriers continue to process claims. For purposes of this report, the term
“Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is applicable.
2
 We performed a prior pension segmentation audit (A-05-92-00048, issued October 1992), which brought the
Medicare segment pension assets to December 31, 1989.

                                                          1

E: 	 CALCULATION OF THE ALLOWABLE MEDICARE PENSION COSTS FOR
     WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION FOR
     FISCAL YEARS 1990 THROUGH 2007

F: 	 AUDITEE COMMENTS




                                                               I.
                                                               ;




                           iv
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that WPS claimed for Medicare
reimbursement for fiscal years (FY) 1990 through 2007.

Scope

We reviewed $25,338,059 of pension costs that WPS claimed for reimbursement on its Final
Administrative Cost Proposals (FACP) for FYs 1990 through 2007. Achieving our objective did
not require that we review WPS’s overall internal control structure. We limited our review to the
internal controls related to the pension costs claimed for reimbursement to ensure that the
pension costs were allocable in accordance with the CAS and allowable in accordance with the
FAR.

We performed fieldwork at WPS’s office in Madison, Wisconsin, during July 2009.

Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed WPS’s FACPs to identify the amount of pension costs claimed for Medicare Part A
and Part B reimbursement for FYs 1990 through 2007. We also determined the extent to which
WPS funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits.

We based our calculations on separately computed CAS pension costs for the Medicare segments
and the “Other” segment. The CMS Office of the Actuary calculated each segment’s allocable
CAS pension costs based on WPS’s historical practices and on the results of our review of
WPS’s pension segmentation requirements in each of the four pension plans. The Employee
Pension Plan (A-07-10-00335) and the Managerial Pension Plan (A-07-10-00336) reports
audited pension assets from January 1, 1990, to January 1, 2008. The Represented Employees’
Retirement Income Plan (A-07-11-00356) report audited pension assets from August 1, 1998, to
December 31, 2007, and the Managerial Retirement Program for Michigan, Illinois, and
Minnesota Employees of WPS (A-07-11-00357) report audited pension assets from
August 1, 1998, to January 1, 2008.

In performing our review, we used information that WPS’s actuarial consulting firm provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined WPS’s accounting records,
pension plan documents, annual actuarial valuation reports, and Department of Labor/Internal
Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                2

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

WPS claimed $934,847 of unallowable Medicare pension costs for FYs 1990 through 2007.
This overstatement occurred primarily because WPS calculated the indirect (“Other” segment)
pension expense using Financial Accounting Standard pension expense, a standard intended for
financial reporting. Using this standard, WPS claimed $25,338,059 in Medicare reimbursement.
We calculated allowable pension costs for this period in accordance with CAS 412 and 413, as
required by the Medicare contracts, to be $24,403,212, a difference of $934,847.

FEDERAL REQUIREMENTS

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

UNALLOWABLE PENSION COSTS CLAIMED

WPS claimed $934,847 of unallowable Medicare pension costs for FYs 1990 through 2007.
During that period, WPS claimed pension costs of $25,338,059 for Medicare reimbursement.
We calculated allowable pension costs based on separately computed CAS pension costs for the
Medicare segment and the “Other” segment in accordance with CAS 412 and 413. Based on the
terms of the Medicare contracts, the allowable CAS pension costs for this period totaled
$24,403,212.

The table on the following page compares allowable CAS pension costs with the pension costs
claimed on WPS’s FACPs. Appendixes A thru D show the development of the allocable pension
costs for each pension plan and Appendix E contains details on allowable pension costs.




                                                3

             Comparison of Allowable Pension Costs and Claimed Pension Costs

       Fiscal Year       Allowable Per Audit        Claimed by WPS              Difference
          1990                 $94,028                      $0                    $94,028
          1991                  31,343                       0                     31,343
          1992                     0                         0                        0
          1993                     0                         0                        0
          1994                   575                         0                      575
          1995                   192                         0                      192
          1996                     0                         0                        0
          1997                     0                         0                        0
          1998                 236,620                   194,792                   41,828
          1999                1,514,554                 1,489,578                  24,976
          2000                1,621,659                 1,391,357                 230,302
          2001                1,813,604                 1,746,428                  67,176
          2002                2,055,228                 1,844,453                 210,775
          2003                3,168,887                 3,453,370                (284,483)
          2004                3,348,551                 3,817,691                (469,140)
          2005                3,507,152                 4,157,585                (650,433)
          2006                3,877,863                 4,062,347                (184,484)
          2007                3,132,956                 3,180,458                 (47,502)
          Total              $24,403,212              $25,338,059               ($934,847)

The Medicare contracts require WPS to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, WPS based its claim for the indirect (“Other” segment)
on Financial Accounting Standard pension expense, a standard intended for financial reporting.
As a result, WPS claimed $934,847 of unallowable pension costs.

RECOMMENDATIONS

We recommend that WPS:

        reduce its FACP pension costs by $934,847 or refund this amount to CMS and

   ensure that future pension cost claims are in accordance with the Medicare contracts.
.
AUDITEE COMMENTS

In written comments on our draft report, WPS concurred with our report but offered two
exceptions.

First, WPS disagreed with our treatment of certain participants as part of the “Other” segment
instead of as part of the “Direct” segment in our related segmentation report (A-07-11-00357).
WPS said that based on the “appropriate treatment” of these participants, the allowable pension
costs claimed for this current audit should have been increased by $88,000.


                                               4

Second, WPS stated that it used a different method to allocate costs from the “Other” segment to
Medicare than the method we had employed. WPS said that its method was reasonable and more
accurate than our method in three significant ways that, taken together, would have increased
allowable costs during the audit period by $322,000. Specifically, WPS stated that the method it
used to allocate costs:

   	 used, as the basis for the allocation, the pension pay from the valuation data files by cost
      center rather than overall company payroll dollars, a method which, according to WPS,
      complied with CAS 413.50(c)(1);

   	 used the January allocation data rather than December’s allocation data to determine the
      percentage within each cost center to charge Medicare; and

   	 determined the Medicare cost on a plan-by-plan basis rather than by using all plans
      combined.

WPS added that on the basis of these exceptions, “… WPS asserts that allowable cost during the
audit should be increased by $410,000 from $24,403,212 to $24,813,212. This would result in
WPS needing to reduce its FACP pension cost by $524,847.”

WPS’s comments are included in their entirety as Appendix F.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing WPS’s comments, we maintain that our computation of the allowable pension
costs complies with the FAR and that our finding and recommendations therefore remain valid.

With respect to the two “exceptions” that WPS offered in its comments, we agree that the
principles by which allowable costs were determined for our related segmentation review
(A-07-11-00357) affect the determination of allowable pension costs claims for this current
review. Accordingly, the response we provided in our segmentation report is equally applicable
to this report, beginning with the fact that the Medicare contracts require that the Medicare
segment be determined based upon the organizational structure of the company, not on the basis
of the status of individual participants in the pension plan. We identified the Medicare segment
based upon the contract language. We maintain that the identification of the Medicare segment
complied with the Medicare contracts and that therefore, no change was necessary. We
computed the pension costs based on the identification of the Medicare segment and the
segmentation of the pension plan assets. Therefore, the allowable pension costs for the
Managerial Retirement Pension Plan that we determined for the current review are valid and
require no change.

In addition, although we noted that WPS cited to the CAS as the basis for the methodology it
used to allocate and compute the allowable pension costs, we point out that the CAS determines
only the allocability of the pension costs. The FAR determines the allowability of the pension
costs claimed for Medicare reimbursement. WPS’s use of the pension pay from the valuation
data files by cost center as the basis for the allocation did not comply with the FAR regarding the

                                                 5

reasonableness of the costs claimed. FAR 31.201-3(a) states: “A cost is reasonable if, in its
nature and amount, it does not exceed that which would be incurred by a prudent person in the
conduct of competitive business.”

Specifically, WPS’s methodology, which used the pension pay from the valuation data files as an
allocation basis, incorrectly excluded a portion of the Total Company, which resulted in an
incorrectly inflated Medicare percentage for the “Other” segment. Furthermore, WPS agreed
with the use of the Total Company salary files for the “Direct” segment; however, it proposed
using a different methodology (valuation pay) for the “Other” segment. Therefore, WPS did not
treat the calculation of the allowable pension costs on a consistent basis between segments.

We used the actual year-to-date salaries charged to each cost center provided to us by WPS to
compute the allocation percentage used in our determination of the allowable “Other” segment
pension costs. Using the actual year-to-date information, we determined the actual amount of
Medicare work performed by the “Other” segment. In so doing, we used December allocation
data because January allocation data would not have allowed us to determine the actual amount
of Medicare work performed for that year.

With respect to the third element of WPS’s allocation method, WPS stated that its methodology
determined the allowable pension costs on a plan-by-plan basis rather than on a combined basis.
However, the four pension plans we reviewed did not have dedicated cost centers for each plan;
rather, the cost centers are shared between the four plans. Therefore, it was not possible for us to
determine the Medicare percent for each plan. If WPS used the Total Company salary files
instead of the valuation pay, the computation of the allowable pension costs for each pension
plan should have resulted in materially the same outcome as would have been the case with the
computation of the allowable pension costs on a combined basis.

In light of the considerations described above, we disagree with WPS’s assertion that allowable
cost during the audit should be increased by $410,000.




                                                 6

APPENDIXES 

APPENDIX A: ALLOCABLE MEDICARE PENSION COSTS FOR THE EMPLOYEE PENSION 

     PLAN FOR WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION 

                 FOR CALENDAR YEARS 1990 THROUGH 2007



                                                                                  Page 1 of 10
     Date                 Description                 Total        "Other"          Medicare


     1990         Contributions                  1/           $0             $0              $0
    7.50%         Discount for Interest          2/           $0             $0              $0
January 1, 1990   Present Value Contributions    3/           $0             $0              $0

                  Prepayment Credit Applied      4/   $158,678        $30,971         $127,707
                  Present Value of Funding       5/   $158,678        $30,971         $127,707

January 1, 1990   CAS Funding Target             6/   $158,678             $0         $158,678
                  Percentage Funded              7/                     0.00%         80.4819%

                  Funded Pension Cost            8/                          $0       $127,707
                  Allowable Interest             9/                          $0             $0

                  Allocable Pension Cost        10/                          $0       $127,707

     1991         Contributions                               $0             $0              $0
    7.50%         Discount for Interest                       $0             $0              $0
January 1, 1991   Present Value Contributions                 $0             $0              $0

                  Prepayment Credit Applied                   $0             $0              $0
                  Present Value of Funding                    $0             $0              $0

January 1, 1991   CAS Funding Target                          $0           $0                $0
                  Percentage Funded                                     0.00%             0.00%

                  Funded Pension Cost                                        $0              $0
                  Allowable Interest                                         $0              $0

                  Allocable Pension Cost                                     $0              $0
                                                                            Page 2 of 10
     Date                 Description           Total        "Other"          Medicare

     1992         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1992   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1992   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1993         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1993   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1993   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 3 of 10
     Date                 Description           Total        "Other"          Medicare

     1994         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1994   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1994   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1995         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1995   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1995   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 4 of 10
     Date                 Description           Total        "Other"          Medicare

     1996         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1996   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1996   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1997         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1997   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1997   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 5 of 10
     Date                 Description           Total        "Other"          Medicare

     1998         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1998   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1998   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1999         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1999   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1999   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 6 of 10
     Date                 Description           Total        "Other"          Medicare

     2000         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 2000   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 2000   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     2001         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 2001   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 2001   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 7 of 10
     Date                 Description           Total        "Other"          Medicare

     2002         Contributions                         $0             $0              $0
    8.00%         Discount for Interest                 $0             $0              $0
January 1, 2002   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 2002   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     2003         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 2003   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 2003   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                             Page 8 of 10
     Date                 Description           Total         "Other"          Medicare

     2004         Contributions                         $0              $0              $0
    7.50%         Discount for Interest                 $0              $0              $0
January 1, 2004   Present Value Contributions           $0              $0              $0

                  Prepayment Credit Applied             $0              $0              $0
                  Present Value of Funding              $0              $0              $0

January 1, 2004   CAS Funding Target                    $0            $0                $0
                  Percentage Funded                                0.00%             0.00%

                  Funded Pension Cost                                   $0              $0
                  Allowable Interest                                    $0              $0

                  Allocable Pension Cost                                $0              $0

     2005         Contributions                 $1,845,000    $1,845,000                $0
    7.50%         Discount for Interest           ($81,467)     ($81,467)               $0
January 1, 2005   Present Value Contributions   $1,763,533    $1,763,533                $0

                  Prepayment Credit Applied       $391,602      $391,602                $0
                  Present Value of Funding      $2,155,135    $2,155,135                $0

January 1, 2005   CAS Funding Target            $1,673,509    $1,673,509                $0
                  Percentage Funded                              100.00%             0.00%

                  Funded Pension Cost                         $1,673,509                $0
                  Allowable Interest                             $59,218                $0

                  Allocable Pension Cost                      $1,732,727                $0
                                                                            Page 9 of 10
     Date                 Description           Total         "Other"         Medicare

     2006         Contributions                 $2,165,000    $2,165,000               $0
    7.50%         Discount for Interest           ($83,363)     ($83,363)              $0
January 1, 2006   Present Value Contributions   $2,081,637    $2,081,637               $0

                  Prepayment Credit Applied       $517,747      $517,747               $0
                  Present Value of Funding      $2,599,384    $2,599,384               $0

January 1, 2006   CAS Funding Target            $2,047,654    $2,047,654               $0
                  Percentage Funded                              100.00%            0.00%

                  Funded Pension Cost                         $2,047,654               $0
                  Allowable Interest                             $61,268               $0

                  Allocable Pension Cost                      $2,108,922               $0

     2007         Contributions                 $2,700,000    $2,700,000               $0
    7.50%         Discount for Interest           ($75,895)     ($75,895)              $0
January 1, 2007   Present Value Contributions   $2,624,105    $2,624,105               $0

                  Prepayment Credit Applied       $593,110      $593,110               $0
                  Present Value of Funding      $3,217,215    $3,217,215               $0

January 1, 2007   CAS Funding Target            $2,130,552    $2,130,552               $0
                  Percentage Funded                              100.00%            0.00%

                  Funded Pension Cost                         $2,130,552               $0
                  Allowable Interest                             $44,466               $0

                  Allocable Pension Cost                      $2,175,018               $0
                                                                                                      Page 10 of 10
ENDNOTES


 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form
    5500 reports. The contributions included deposits made during the plan year and accrued contributions
    deposited after the end of the plan year but within the time allowed for filing tax returns. We determined the
    contributions allocated to the Medicare segment during the pension segmentation review (A-07-10-00335).
    The amounts shown for the “Other” segment represent the difference between the Total Company and the
    Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation
    year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix,
    we computed the interest as the difference between the present value of contributions (at the valuation interest
    rate) and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to
    the first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the
    plan year to have been made on the final day of the plan year, consistent with the method mandated by the
    Employee Retirement Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A 

    prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting 

    Standards (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS 

    pension costs. 


 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the
    amount of funding that is available to cover the CAS funding target measured at the first day of the plan year.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement
    of the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during
    the plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in
    accordance with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed
    the percentage funded as the present value of funding divided by the CAS funding target. For purposes of
    illustration, the percentage of funding has been rounded to six decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same
    proportion as the interest on contributions bears to the present value of contributions. However, we limited the
    interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the
    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal
    installments deposited within 30 days after the end of the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
 APPENDIX B: ALLOCABLE MEDICARE PENSION COSTS FOR THE MANAGERIAL PENSION 

       PLAN FOR WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION 

                   FOR CALENDAR YEARS 1990 THROUGH 2007


                                                                                  Page 1 of 10
     Date                 Description                 Total        "Other"          Medicare

     1990         Contributions                  1/           $0             $0              $0
    7.50%         Discount for Interest          2/           $0             $0              $0
January 1, 1990   Present Value Contributions    3/           $0             $0              $0

                  Prepayment Credit Applied      4/           $0             $0              $0
                  Present Value of Funding       5/           $0             $0              $0

January 1, 1990   CAS Funding Target             6/   $165,463             $0         $165,463
                  Percentage Funded              7/                     0.00%            0.00%

                  Funded Pension Cost            8/                          $0              $0
                  Allowable Interest             9/                          $0              $0

                  Allocable Pension Cost        10/                          $0              $0

     1991         Contributions                               $0             $0              $0
    7.50%         Discount for Interest                       $0             $0              $0
January 1, 1991   Present Value Contributions                 $0             $0              $0

                  Prepayment Credit Applied                   $0             $0              $0
                  Present Value of Funding                    $0             $0              $0

January 1, 1991   CAS Funding Target                          $0           $0                $0
                  Percentage Funded                                     0.00%             0.00%

                  Funded Pension Cost                                        $0              $0
                  Allowable Interest                                         $0              $0

                  Allocable Pension Cost                                     $0              $0
                                                                            Page 2 of 10
     Date                 Description           Total        "Other"          Medicare

     1992         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1992   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1992   CAS Funding Target            $176,415             $0         $176,415
                  Percentage Funded                               0.00%            0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1993         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1993   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1993   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 3 of 10
     Date                 Description           Total        "Other"          Medicare

     1994         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1994   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied       $25,745       $25,745                $0
                  Present Value of Funding        $25,745       $25,745                $0

January 1, 1994   CAS Funding Target            $1,802,276   $1,802,276                $0
                  Percentage Funded                             1.4285%             0.00%

                  Funded Pension Cost                           $25,745                $0
                  Allowable Interest                                 $0                $0

                  Allocable Pension Cost                        $25,745                $0

     1995         Contributions                         $0             $0              $0
    7.50%         Discount for Interest                 $0             $0              $0
January 1, 1995   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1995   CAS Funding Target            $2,834,483   $2,834,483                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 4 of 10
     Date                 Description           Total        "Other"          Medicare

     1996         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1996   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1996   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1997         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1997   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1997   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 5 of 10
     Date                 Description           Total        "Other"          Medicare

     1998         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1998   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1998   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     1999         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 1999   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 1999   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                            Page 6 of 10
     Date                 Description           Total        "Other"          Medicare

     2000         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 2000   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 2000   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0

     2001         Contributions                         $0             $0              $0
    9.00%         Discount for Interest                 $0             $0              $0
January 1, 2001   Present Value Contributions           $0             $0              $0

                  Prepayment Credit Applied             $0             $0              $0
                  Present Value of Funding              $0             $0              $0

January 1, 2001   CAS Funding Target                    $0           $0                $0
                  Percentage Funded                               0.00%             0.00%

                  Funded Pension Cost                                  $0              $0
                  Allowable Interest                                   $0              $0

                  Allocable Pension Cost                               $0              $0
                                                                             Page 7 of 10
     Date                 Description           Total         "Other"          Medicare

     2002         Contributions                         $0              $0              $0
    8.00%         Discount for Interest                 $0              $0              $0
January 1, 2002   Present Value Contributions           $0              $0              $0

                  Prepayment Credit Applied             $0              $0              $0
                  Present Value of Funding              $0              $0              $0

January 1, 2002   CAS Funding Target                    $0            $0                $0
                  Percentage Funded                                0.00%             0.00%

                  Funded Pension Cost                                   $0              $0
                  Allowable Interest                                    $0              $0

                  Allocable Pension Cost                                $0              $0

     2003         Contributions                 $9,590,306    $9,239,213         $351,093
    7.50%         Discount for Interest          ($504,829)    ($486,348)        ($18,481)
January 1, 2003   Present Value Contributions   $9,085,477    $8,752,865         $332,612

                  Prepayment Credit Applied             $0            $0               $0
                  Present Value of Funding      $9,085,477    $8,752,865         $332,612

January 1, 2003   CAS Funding Target            $4,765,285    $4,432,673         $332,612
                  Percentage Funded                              100.00%          100.00%

                  Funded Pension Cost                         $4,432,673         $332,612
                  Allowable Interest                            $235,486          $17,670

                  Allocable Pension Cost                      $4,668,159         $350,282
                                                                              Page 8 of 10
     Date                 Description            Total         "Other"          Medicare

     2004         Contributions                  $6,944,000     $6,874,046         $69,954
    7.50%         Discount for Interest           ($364,705)     ($361,031)        ($3,674)
January 1, 2004   Present Value Contributions    $6,579,295     $6,513,015         $66,280

                  Prepayment Credit Applied      $4,644,207     $4,217,780        $426,427
                  Present Value of Funding      $11,223,502    $10,730,795        $492,707

January 1, 2004   CAS Funding Target             $5,366,059     $4,873,352        $492,707
                  Percentage Funded                                100.00%         100.00%

                  Funded Pension Cost                           $4,873,352        $492,707
                  Allowable Interest                               $34,827          $3,521

                  Allocable Pension Cost                        $4,908,179        $496,228

     2005         Contributions                  $8,618,000     $8,502,419        $115,581
    7.50%         Discount for Interest           ($394,003)     ($388,719)        ($5,284)
January 1, 2005   Present Value Contributions    $8,223,997     $8,113,700        $110,297

                  Prepayment Credit Applied      $6,296,751     $5,713,728        $583,023
                  Present Value of Funding      $14,520,748    $13,827,428        $693,320

January 1, 2005   CAS Funding Target             $7,487,980     $6,794,660        $693,320
                  Percentage Funded                                100.00%         100.00%

                  Funded Pension Cost                           $6,794,660        $693,320
                  Allowable Interest                               $51,786          $5,284

                  Allocable Pension Cost                        $6,846,446        $698,604
                                                                              Page 9 of 10
     Date                 Description             Total        "Other"          Medicare

     2006         Contributions                 $12,327,000    $12,126,403        $200,597
    7.50%         Discount for Interest           ($248,375)     ($244,333)        ($4,042)
January 1, 2006   Present Value Contributions   $12,078,625    $11,882,070        $196,555

                  Prepayment Credit Applied      $7,560,226     $6,978,543        $581,683
                  Present Value of Funding      $19,638,851    $18,860,613        $778,238

January 1, 2006   CAS Funding Target            $10,114,891     $9,336,653        $778,238
                  Percentage Funded                                100.00%         100.00%

                  Funded Pension Cost                           $9,336,653        $778,238
                  Allowable Interest                               $48,490          $4,042

                  Allocable Pension Cost                        $9,385,143        $782,280

     2007         Contributions                 $14,600,000    $14,551,724         $48,276
    7.50%         Discount for Interest           ($294,479)     ($293,505)          ($974)
January 1, 2007   Present Value Contributions   $14,305,521    $14,258,219         $47,302

                  Prepayment Credit Applied     $10,238,257     $9,482,625        $755,632
                  Present Value of Funding      $24,543,778    $23,740,844        $802,934

January 1, 2007   CAS Funding Target            $10,879,165    $10,076,231        $802,934
                  Percentage Funded                                100.00%         100.00%

                  Funded Pension Cost                          $10,076,231        $802,934
                  Allowable Interest                               $12,219            $974

                  Allocable Pension Cost                       $10,088,450        $803,908
                                                                                                           Page 10 of 10
ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500
    reports. The contributions included deposits made during the plan year and accrued contributions deposited after
    the end of the plan year but within the time allowed for filing tax returns. We determined the contributions
    allocated to the Medicare segment during the pension segmentation review (A-07-10-00336). The amounts shown
    for the “Other” segment represent the difference between the Total Company and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year
    to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we
    computed the interest as the difference between the present value of contributions (at the valuation interest rate) and
    actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the
    first day of the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to
    have been made on the final day of the plan year, consistent with the method mandated by the Employee Retirement
    Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A 

    prepayment credit is created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards 

    (CAS) funding target. A prepayment credit is carried forward, with interest, to fund future CAS pension costs.


 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the 

    amount of funding that is available to cover the CAS funding target measured at the first day of the plan year.


 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of 

    the Federal Acquisition Regulation (FAR) 31.205-6(j)(2)(i). 


 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the
    plan year. Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance
    with CAS 412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed the percentage
    funded as the present value of funding divided by the CAS funding target. For purposes of illustration, the
    percentage of funding has been rounded to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same 

    proportion as the interest on contributions bears to the present value of contributions. However, we limited the 

    interest in accordance with FAR 31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the 

    interest that would accrue if the CAS funding target, less the prepayment credit, were funded in four equal 

    installments deposited within 30 days after the end of the quarter. 


10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
   APPENDIX C: ALLOCABLE MEDICARE PENSION COSTS FOR THE REPRESENTED EMPLOYEES’ 

    RETIREMENT INCOME PENSION PLAN FOR WISCONSIN PHYSICIANS SERVICE INSURANCE 

                 CORPORATION FOR CALENDAR YEARS 1998 THROUGH 2007


                                                                                               Page 1 of 6
                                                       Total       "Other"        Medicare       Medicare
     Date                Description                  Company                      Part A         Part B

    1998          Contributions                  1/    $254,673              $0          $0        $254,673
   9.00%          Discount for Interest          2/    ($19,171)             $0          $0        ($19,171)
August 1, 1998    Present Value Contributions    3/    $235,502              $0          $0        $235,502

                  Prepayment Credit Applied      4/          $0              $0          $0              $0
                  Present Value of Funding       5/    $235,502              $0          $0        $235,502

August 1, 1998    CAS Funding Target             6/    $242,528           $0             $0        $242,528
                  Percentage Funded              7/                    0.00%          0.00%          97.10%

                  Funded Pension Cost            8/                          $0          $0        $235,502
                  Allowable Interest             9/                          $0          $0         $15,013

                  Allocable Pension Cost        10/                          $0          $0        $250,515

     1999         Contributions                        $771,900              $0    $153,039        $618,861
    9.00%         Discount for Interest                ($39,681)             $0     ($7,867)       ($31,814)
January 1, 1999   Present Value Contributions          $732,219              $0    $145,172        $587,047

                  Prepayment Credit Applied              $5,302              $0      $1,051          $4,251
                  Present Value of Funding             $737,521              $0    $146,223        $591,298

January 1, 1999   CAS Funding Target                   $726,213           $0       $143,980        $582,233
                  Percentage Funded                                    0.00%        100.00%         100.00%

                  Funded Pension Cost                                        $0    $143,980        $582,233
                  Allowable Interest                                         $0      $7,745         $31,323

                  Allocable Pension Cost                                     $0    $151,725        $613,556
                                                                                         Page 2 of 6
                                                 Total       "Other"        Medicare       Medicare
     Date                Description            Company                      Part A         Part B


     2000         Contributions                  $805,334              $0    $167,314        $638,020
    9.00%         Discount for Interest          ($36,885)             $0     ($7,663)       ($29,222)
January 1, 2000   Present Value Contributions    $768,449              $0    $159,651        $608,798

                  Prepayment Credit Applied       $12,325              $0      $2,561          $9,764
                  Present Value of Funding       $780,774              $0    $162,212        $618,562

January 1, 2000   CAS Funding Target             $758,461           $0       $157,576        $600,885
                  Percentage Funded                              0.00%        100.00%         100.00%

                  Funded Pension Cost                                  $0    $157,576        $600,885
                  Allowable Interest                                   $0      $7,440         $28,374

                  Allocable Pension Cost                               $0    $165,016        $629,259

     2001         Contributions                  $700,872              $0    $146,992        $553,880
    9.00%         Discount for Interest          ($27,558)             $0     ($5,780)       ($21,778)
January 1, 2001   Present Value Contributions    $673,314              $0    $141,212        $532,102

                  Prepayment Credit Applied       $24,321              $0      $5,101         $19,220
                  Present Value of Funding       $697,635              $0    $146,313        $551,322

January 1, 2001   CAS Funding Target             $661,671           $0       $138,771        $522,900
                  Percentage Funded                              0.00%        100.00%         100.00%

                  Funded Pension Cost                                  $0    $138,771        $522,900
                  Allowable Interest                                   $0      $5,471          $20,615

                  Allocable Pension Cost                               $0    $144,242        $543,515
                                                                                         Page 3 of 6
                                                 Total       "Other"        Medicare       Medicare
     Date                Description            Company                      Part A         Part B


     2002         Contributions                  $762,688              $0    $144,697        $617,991
    8.00%         Discount for Interest          ($30,892)             $0     ($5,861)       ($25,031)
January 1, 2002   Present Value Contributions    $731,796              $0    $138,836        $592,960

                  Prepayment Credit Applied       $39,201              $0      $8,338         $30,863
                  Present Value of Funding       $770,997              $0    $147,174        $623,823

January 1, 2002   CAS Funding Target             $691,926            $0      $147,174        $544,752
                  Percentage Funded                               0.00%       100.00%         100.00%

                  Funded Pension Cost                                  $0    $147,174        $544,752
                  Allowable Interest                                   $0      $5,861         $21,693

                  Allocable Pension Cost                               $0    $153,035        $566,445

     2003         Contributions                  $868,418      $106,784            $0        $761,634
    7.50%         Discount for Interest          ($30,966)      ($3,808)           $0        ($27,158)
January 1, 2003   Present Value Contributions    $837,452      $102,976            $0        $734,476

                  Prepayment Credit Applied       $85,397            $0            $0         $85,397
                  Present Value of Funding       $922,849      $102,976            $0        $819,873

January 1, 2003   CAS Funding Target             $819,872            $0            $0        $819,872
                  Percentage Funded                               0.00%         0.00%         100.00%

                  Funded Pension Cost                                  $0          $0        $819,872
                  Allowable Interest                                   $0          $0          $27,158

                  Allocable Pension Cost                               $0          $0        $847,030
                                                                                        Page 4 of 6
                                                 Total       "Other"        Medicare      Medicare
     Date                Description            Company                      Part A        Part B


     2004         Contributions                  $762,098      $119,353            $0       $642,745
    7.50%         Discount for Interest          ($28,547)      ($4,472)           $0       ($24,075)
January 1, 2004   Present Value Contributions    $733,551      $114,881            $0       $618,670

                  Prepayment Credit Applied      $110,700            $0            $0       $110,700
                  Present Value of Funding       $844,251      $114,881            $0       $729,370

January 1, 2004   CAS Funding Target             $729,370            $0            $0       $729,370
                  Percentage Funded                               0.00%         0.00%        100.00%

                  Funded Pension Cost                                  $0          $0       $729,370
                  Allowable Interest                                   $0          $0        $24,075

                  Allocable Pension Cost                               $0          $0       $753,445

     2005         Contributions                  $755,000      $191,515            $0       $563,485
    7.50%         Discount for Interest          ($27,870)      ($7,070)           $0       ($20,800)
January 1, 2005   Present Value Contributions    $727,130      $184,445            $0       $542,685

                  Prepayment Credit Applied      $123,498        $9,782            $0       $113,716
                  Present Value of Funding       $850,628      $194,227            $0       $656,401

January 1, 2005   CAS Funding Target             $712,866       $56,465            $0       $656,401
                  Percentage Funded                             100.00%         0.00%        100.00%

                  Funded Pension Cost                           $56,465            $0       $656,401
                  Allowable Interest                             $1,789            $0        $20,800

                  Allocable Pension Cost                        $58,254            $0       $677,201
                                                                                          Page 5 of 6
                                                 Total       "Other"        Medicare        Medicare
     Date                Description            Company                      Part A          Part B


     2006         Contributions                  $709,000      $140,698            $0         $568,302
    7.50%         Discount for Interest          ($25,089)      ($4,980)           $0         ($20,109)
January 1, 2006   Present Value Contributions    $683,911      $135,718            $0         $548,193
                                                                     $0
                  Prepayment Credit Applied      $148,094       $12,358            $0         $135,736
                  Present Value of Funding       $832,005      $148,076            $0         $683,929

January 1, 2006   CAS Funding Target             $746,198       $62,269            $0         $683,929
                  Percentage Funded                             100.00%         0.00%          100.00%

                  Funded Pension Cost                           $62,269            $0         $683,929
                  Allowable Interest                             $1,831            $0 #        $20,109

                  Allocable Pension Cost                        $64,100            $0         $704,038

     2007         Contributions                  $259,322      $259,322            $0               $0
    7.50%         Discount for Interest           ($9,046)      ($9,046)           $0               $0
January 1, 2007   Present Value Contributions    $250,276      $250,276            $0               $0

                  Prepayment Credit Applied            $0            $0            $0               $0
                  Present Value of Funding       $250,276      $250,276            $0               $0

January 1, 2007   CAS Funding Target                   $0            $0            $0               $0
                  Percentage Funded                               0.00%         0.00%            0.00%

                  Funded Pension Cost                                  $0          $0               $0
                  Allowable Interest                                   $0          $0               $0

                  Allocable Pension Cost                               $0          $0               $0
                                                                                                                       Page 6 of 6
ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports.
    The contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan
    year but within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment
    during the pension segmentation review (A-07-11-00356). The amounts shown for the “Other” segment represent the
    difference between the Total Company and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to
    discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest
    as the difference between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of
    the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on
    the final day of the plan year, consistent with the method mandated by the Employee Retirement Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A
    prepayment credit is carried forward, with interest, to fund future CAS pension costs.

 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of
    funding that is available to cover the CAS funding target measured at the first day of the plan year.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal
    Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year.
    Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS
    412.50(c)(1) (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present
    value of funding divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding
    target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
                APPENDIX D: ALLOCABLE MEDICARE PENSION COSTS FOR THE

    MANAGERIAL RETIREMENT PENSION PLAN FOR WISCONSIN PHYSICIANS SERVICE INSURANCE 

                  CORPORATION FOR CALENDAR YEARS 1998 THROUGH 2007


                                                                                                Page 1 of 6
                                                       Total        "Other"        Medicare       Medicare
     Date                Description                  Company                       Part A          Part B

    1998          Contributions                  1/     $344,759              $0          $0        $344,759
   9.00%          Discount for Interest          2/     ($24,162)             $0          $0        ($24,162)
August 1, 1998    Present Value Contributions    3/     $320,597              $0          $0        $320,597

                  Prepayment Credit Applied      4/           $0              $0          $0
                  Present Value of Funding       5/     $320,597              $0          $0        $320,597

August 1, 1998    CAS Funding Target             6/     $332,778            $0            $0        $332,778
                  Percentage Funded              7/                      0.00%         0.00%          96.34%

                  Funded Pension Cost            8/                           $0          $0        $320,597
                  Allowable Interest             9/                           $0          $0         $20,438

                  Allocable Pension Cost        10/                           $0          $0        $341,035

     1999         Contributions                         $851,677       $79,490       $29,703        $742,484
    9.00%         Discount for Interest                 ($38,347)      ($3,580)      ($1,337)       ($33,430)
January 1, 1999   Present Value Contributions           $813,330       $75,910       $28,366        $709,054

                  Prepayment Credit Applied               $4,506          $220          $165          $4,121
                  Present Value of Funding              $817,836       $76,130       $28,531        $713,175

January 1, 1999   CAS Funding Target                    $779,840       $38,134       $28,531        $713,175
                  Percentage Funded                                    100.00%       100.00%         100.00%

                  Funded Pension Cost                                  $38,134       $28,531        $713,175
                  Allowable Interest                                    $1,788        $1,337          $33,430

                  Allocable Pension Cost                               $39,922       $29,868         $746,605
                                                                                         Page 2 of 6
                                                 Total        "Other"       Medicare       Medicare
     Date                Description            Company                      Part A          Part B


     2000         Contributions                   $910,209      $103,642      $38,575        $767,992
    9.00%         Discount for Interest           ($41,042)      ($4,674)     ($1,739)       ($34,629)
January 1, 2000   Present Value Contributions     $869,167       $98,968      $36,836        $733,363

                  Prepayment Credit Applied        $41,416        $2,467       $1,863         $37,086
                  Present Value of Funding        $910,583      $101,435      $38,699        $770,449

January 1, 2000   CAS Funding Target              $860,404       $51,257      $38,699        $770,448
                  Percentage Funded                              100.00%      100.00%         100.00%

                  Funded Pension Cost                            $51,257      $38,699        $770,448
                  Allowable Interest                              $2,304       $1,739         $34,629

                  Allocable Pension Cost                         $53,561      $40,438         805,077

     2001         Contributions                 $1,216,990       $90,652      $38,796       $1,087,542
    9.00%         Discount for Interest           ($55,016)      ($4,098)     ($1,754)        ($49,164)
January 1, 2001   Present Value Contributions   $1,161,974       $86,554      $37,042       $1,038,378

                  Prepayment Credit Applied        $54,695          $726       $1,859          $52,110
                  Present Value of Funding      $1,216,669       $87,280      $38,901       $1,090,488

January 1, 2001   CAS Funding Target            $1,144,588       $15,199      $38,901       $1,090,488
                  Percentage Funded                              100.00%      100.00%          100.00%

                  Funded Pension Cost                            $15,199      $38,901       $1,090,488
                  Allowable Interest                                $685       $1,754           $49,164

                  Allocable Pension Cost                         $15,884      $40,655       $1,139,652
                                                                                         Page 3 of 6
                                                 Total        "Other"       Medicare       Medicare
     Date                Description            Company                      Part A          Part B


     2002         Contributions                 $1,440,914      $122,763      $45,570       $1,272,581
    8.00%         Discount for Interest           ($61,650)      ($5,252)     ($1,950)        ($54,448)
January 1, 2002   Present Value Contributions   $1,379,264      $117,511      $43,620       $1,218,133

                  Prepayment Credit Applied        $78,569          $987       $2,682          $74,900
                  Present Value of Funding      $1,457,833      $118,498      $46,302       $1,293,033

January 1, 2002   CAS Funding Target            $1,356,365       $17,030      $46,302       $1,293,033
                  Percentage Funded                              100.00%      100.00%          100.00%

                  Funded Pension Cost                            $17,030      $46,302       $1,293,033
                  Allowable Interest                                $717       $1,950          $54,448

                  Allocable Pension Cost                         $17,747      $48,252       $1,347,481

     2003         Contributions                 $1,904,619      $209,952           $0       $1,694,667
    7.50%         Discount for Interest           ($67,477)      ($7,439)          $0         ($60,038)
January 1, 2003   Present Value Contributions   $1,837,142      $202,513           $0       $1,634,629

                  Prepayment Credit Applied       $109,585        $2,901           $0         $106,684
                  Present Value of Funding      $1,946,727      $205,414           $0       $1,741,313

January 1, 2003   CAS Funding Target            $1,788,666       $47,353           $0       $1,741,313
                  Percentage Funded                              100.00%        0.00%          100.00%

                  Funded Pension Cost                            $47,353           $0       $1,741,313
                  Allowable Interest                              $1,633           $0          $60,038

                  Allocable Pension Cost                         $48,986           $0       $1,801,351
                                                                                        Page 4 of 6
                                                 Total        "Other"       Medicare      Medicare
     Date                Description            Company                      Part A         Part B


     2004         Contributions                 $1,766,580      $245,863           $0      $1,520,717
    7.50%         Discount for Interest           ($67,122)      ($9,343)          $0        ($57,779)
January 1, 2004   Present Value Contributions   $1,699,458      $236,520           $0      $1,462,938

                  Prepayment Credit Applied       $169,916        $6,206           $0        $163,710
                  Present Value of Funding      $1,869,374      $242,726           $0      $1,626,648

January 1, 2004   CAS Funding Target            $1,688,311       $61,663           $0      $1,626,648
                  Percentage Funded                              100.00%        0.00%         100.00%

                  Funded Pension Cost                            $61,663           $0      $1,626,648
                  Allowable Interest                              $2,191           $0         $57,779

                  Allocable Pension Cost                         $63,854           $0      $1,684,427

     2005         Contributions                 $1,853,000      $349,594           $0      $1,503,406
    7.50%         Discount for Interest           ($51,906)      ($9,794)          $0        ($42,112)
January 1, 2005   Present Value Contributions   $1,801,094      $339,800           $0      $1,461,294

                  Prepayment Credit Applied       $194,643       $14,427           $0        $180,216
                  Present Value of Funding      $1,995,737      $354,227           $0      $1,641,510

January 1, 2005   CAS Funding Target            $1,772,919      $131,409           $0      $1,641,510
                  Percentage Funded                              100.00%        0.00%         100.00%

                  Funded Pension Cost                           $131,409           $0      $1,641,510
                  Allowable Interest                              $3,372           $0         $42,112

                  Allocable Pension Cost                        $134,781           $0      $1,683,622
                                                                                        Page 5 of 6
                                                 Total        "Other"       Medicare      Medicare
     Date                Description            Company                      Part A         Part B


     2006         Contributions                 $1,836,000      $342,873           $0      $1,493,127
    7.50%         Discount for Interest           ($70,080)     ($13,088)          $0        ($56,992)
January 1, 2006   Present Value Contributions   $1,765,920      $329,785           $0      $1,436,135
                                                                      $0
                  Prepayment Credit Applied       $239,530       $17,042           $0        $222,488
                  Present Value of Funding      $2,005,450      $346,827           $0      $1,658,623

January 1, 2006   CAS Funding Target            $1,785,667      $127,044           $0      $1,658,623
                  Percentage Funded                              100.00%        0.00%         100.00%

                  Funded Pension Cost                           $127,044           $0      $1,658,623
                  Allowable Interest                              $4,366           $0         $56,992

                  Allocable Pension Cost                        $131,410           $0      $1,715,615

     2007         Contributions                 $1,344,257      $352,652           $0       $991,605
    7.50%         Discount for Interest           ($46,893)     ($12,302)          $0       ($34,591)
January 1, 2007   Present Value Contributions   $1,297,364      $340,350           $0       $957,014

                  Prepayment Credit Applied       $236,267       $25,007           $0        $211,260
                  Present Value of Funding      $1,533,631      $365,357           $0      $1,168,274

January 1, 2007   CAS Funding Target            $1,306,564      $138,290           $0      $1,168,274
                  Percentage Funded                              100.00%        0.00%         100.00%

                  Funded Pension Cost                           $138,290           $0      $1,168,274
                  Allowable Interest                              $4,095           $0         $34,591

                  Allocable Pension Cost                        $142,385           $0      $1,202,865
                                                                                                                          Page 6 of 6
ENDNOTES

 1/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but
    within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the
    pension segmentation review (A-07-11-00357). The amounts shown for the “Other” segment represent the difference between the
    Total Company and the Medicare segment.

 2/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
    between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
    plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on the final
    day of the plan year, consistent with the method mandated by the Employee Retirement Income Security Act.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
    created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A prepayment
    credit is carried forward, with interest, to fund future CAS pension costs.

 5/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the plan year.

 6/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal
    Acquisition Regulation (FAR) 31.205-6(j)(2)(i).

 7/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year.
    Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1)
    (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding
    divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimals.

 8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.
APPENDIX E: CALCULATION OF THE ALLOWABLE MEDICARE PENSION COSTS FOR WISCONSIN PHYSICIANS SERVICE
                    INSURANCE CORPORATION FOR FISCAL YEARS 1990 THROUGH 2007

                                                                                                          Page 1 of 7

                                                                             Medicare Part
    Date                              Description                  "Other"        B          Total

January 1, 1990 Employee Pension Plan Allocable               1/       $0      $127,707
                Managerial Pension Plan Allocable             2/       $0            $0

                Total Calendar Year Allocable Pension Costs   3/       $0      $127,707
                LOB* Percentage                               4/    6.23%        98.17%

                Calendar Year Allowable Pension Costs         5/       $0      $125,370

           1990 Fiscal Year Allowable Pension Costs           6/       $0       $94,028      $94,028

                                                                             Medicare Part
    Date                              Description                  "Other"        B          Total

January 1, 1991 Employee Pension Plan Allocable                        $0            $0
                Managerial Pension Plan Allocable                      $0            $0

                Total Calendar Year Allocable Pension Costs            $0            $0
                LOB* Percentage                                     3.97%       100.00%

                Calendar Year Allowable Pension Costs                  $0            $0

           1991 Fiscal Year Allowable Pension Costs           7/       $0       $31,343      $31,343

                                                                             Medicare Part
    Date                              Description                  "Other"        B          Total

January 1, 1992 Employee Pension Plan Allocable                        $0            $0
                Managerial Pension Plan Allocable                      $0            $0

                Total Calendar Year Allocable Pension Costs            $0            $0
                LOB* Percentage                                     3.56%       100.00%

                Calendar Year Allowable Pension Costs                  $0            $0

           1992 Fiscal Year Allowable Pension Costs                    $0            $0              $0
                                                                                                     Page 2 of 7
                                                                        Medicare Part
    Date                              Description             "Other"        B          Total

January 1, 1993 Employee Pension Plan Allocable                   $0            $0
                Managerial Pension Plan Allocable                 $0            $0

                Total Calendar Year Allocable Pension Costs        $0           $0
                LOB* Percentage                                 3.42%      100.00%

                Calendar Year Allowable Pension Costs             $0            $0

           1993 Fiscal Year Allowable Pension Costs               $0            $0              $0

                                                                        Medicare Part
    Date                              Description             "Other"        B          Total

January 1, 1994 Employee Pension Plan Allocable                    $0           $0
                Managerial Pension Plan Allocable             $25,745           $0

                Total Calendar Year Allocable Pension Costs   $25,745           $0
                LOB* Percentage                                 2.98%      100.00%

                Calendar Year Allowable Pension Costs           $767            $0

           1994 Fiscal Year Allowable Pension Costs             $575            $0         $575

                                                                        Medicare Part
    Date                              Description             "Other"        B          Total

January 1, 1995 Employee Pension Plan Allocable                   $0            $0
                Managerial Pension Plan Allocable                 $0            $0

                Total Calendar Year Allocable Pension Costs        $0           $0
                LOB* Percentage                                 3.14%      100.00%

                Calendar Year Allowable Pension Costs             $0            $0

           1995 Fiscal Year Allowable Pension Costs             $192            $0         $192
                                                                                                                      Page 3 of 7
                                                                                        Medicare Part
    Date                                Description                           "Other"        B           Total

January 1, 1996 Employee Pension Plan Allocable                                   $0            $0
                Managerial Pension Plan Allocable                                 $0            $0

                  Total Calendar Year Allocable Pension Costs                     $0            $0
                  LOB* Percentage                                              3.13%       100.00%

                  Calendar Year Allowable Pension Costs                           $0            $0

           1996 Fiscal Year Allowable Pension Costs                               $0            $0               $0

                                                                                        Medicare Part
    Date                                Description                           "Other"        B           Total

January 1, 1997 Employee Pension Plan Allocable                                   $0            $0
                Managerial Pension Plan Allocable                                 $0            $0

                  Total Calendar Year Allocable Pension Costs                     $0            $0
                  LOB* Percentage                                              4.13%        99.60%

                  Calendar Year Allowable Pension Costs                           $0            $0

           1997 Fiscal Year Allowable Pension Costs                               $0            $0               $0

                                                                                        Medicare Part Medicare Part
    Date                                Description                           "Other"        B             A              Total

January 1, 1998   Employee Pension Plan Allocable                                 $0            $0
January 1, 1998   Managerial Pension Plan Allocable                               $0            $0
 August 1, 1998   Employees' Retirement Income Pension Plan Allocable   8/        $0      $250,515               $0
 August 1, 1998   Managerial Retirement Pension Plan Allocable          9/        $0      $341,035               $0

                  Total Calendar Year Allocable Pension Costs                     $0      $591,550            $0
                  LOB* Percentage                                              6.96%       100.00%          100%

                  Calendar Year Allowable Pension Costs                           $0      $591,550               $0

           1998 Fiscal Year Allowable Pension Costs                     10/       $0      $236,620               $0      $236,620
                                                                                                                    Page 4 of 7
                                                                                      Medicare Part Medicare Part
    Date                              Description                           "Other"        B             A              Total

January 1, 1999 Employee Pension Plan Allocable                                  $0           $0
                Managerial Pension Plan Allocable                                $0           $0
                Employees' Retirement Income Pension Plan Allocable              $0     $613,556      $151,725
                Managerial Retirement Pension Plan Allocable                $39,922     $746,605       $29,868

                Total Calendar Year Allocable Pension Costs                 $39,922    $1,360,161     $181,593
                LOB* Percentage                                              11.05%       100.00%      100.00%

                Calendar Year Allowable Pension Costs                        $4,411    $1,360,161     $181,593

           1999 Fiscal Year Allowable Pension Costs                   11/    $3,308    $1,375,051     $136,195       $1,514,554

                                                                                      Medicare Part Medicare Part
    Date                              Description                           "Other"        B             A              Total

January 1, 2000 Employee Pension Plan Allocable                                  $0           $0
                Managerial Pension Plan Allocable                                $0           $0
                Employees' Retirement Income Pension Plan Allocable              $0     $629,259      $165,016
                Managerial Retirement Pension Plan Allocable                $53,561     $805,077       $40,438

                Total Calendar Year Allocable Pension Costs                 $53,561    $1,434,336     $205,454
                LOB* Percentage                                              13.13%       100.00%      100.00%

                Calendar Year Allowable Pension Costs                        $7,033    $1,434,336     $205,454

           2000 Fiscal Year Allowable Pension Costs                          $6,378    $1,415,792     $199,489       $1,621,659

                                                                                      Medicare Part Medicare Part
    Date                              Description                           "Other"        B             A              Total

January 1, 2001 Employee Pension Plan Allocable                                  $0            $0
                Managerial Pension Plan Allocable                                $0            $0
                Employees' Retirement Income Pension Plan Allocable              $0      $543,515     $144,242
                Managerial Retirement Pension Plan Allocable                $15,884    $1,139,652      $40,655

                Total Calendar Year Allocable Pension Costs                 $15,884    $1,683,167     $184,897
                LOB* Percentage                                              10.66%        99.97%       99.97%

                Calendar Year Allowable Pension Costs                        $1,693    $1,682,662     $184,842

           2001 Fiscal Year Allowable Pension Costs                          $3,028    $1,620,581     $189,995       $1,813,604
                                                                                                                       Page 5 of 7
                                                                                         Medicare Part Medicare Part
    Date                              Description                             "Other"         B             A              Total

January 1, 2002 Employee Pension Plan Allocable                                    $0             $0
                Managerial Pension Plan Allocable                                  $0             $0
                Employees' Retirement Income Pension Plan Allocable                $0       $566,445     $153,035
                Managerial Retirement Pension Plan Allocable                  $17,747     $1,347,481      $48,252

                Total Calendar Year Allocable Pension Costs                   $17,747     $1,913,926     $201,287
                LOB* Percentage                                                11.41%        100.00%      100.00%

                Calendar Year Allowable Pension Costs                          $2,025     $1,913,926     $201,287

           2002 Fiscal Year Allowable Pension Costs                            $1,942     $1,856,110     $197,176       $2,055,228

                                                                                         Medicare Part Medicare Part
    Date                              Description                             "Other"         B             A              Total

January 1, 2003 Employee Pension Plan Allocable                                     $0            $0
                Managerial Pension Plan Allocable                           $4,668,159      $350,282
                Employees' Retirement Income Pension Plan Allocable                 $0      $847,030
                Managerial Retirement Pension Plan Allocable                   $48,986    $1,801,351

                Total Calendar Year Allocable Pension Costs                 $4,717,145    $2,998,663
                LOB* Percentage                                                 11.04%       100.00%

                Calendar Year Allowable Pension Costs                        $520,773     $2,998,663

           2003 Fiscal Year Allowable Pension Costs                   12/    $391,086     $2,727,479      $50,322       $3,168,887
                                                                                                                Page 6 of 7
                                                                                   Medicare Part
    Date                              Description                       "Other"         B            Total

January 1, 2004 Employee Pension Plan Allocable                               $0            $0
                Managerial Pension Plan Allocable                     $4,908,179      $496,228
                Employees' Retirement Income Pension Plan Allocable           $0      $753,445
                Managerial Retirement Pension Plan Allocable             $63,854    $1,684,427

                Total Calendar Year Allocable Pension Costs           $4,972,033    $2,934,100
                LOB* Percentage                                            7.19%       100.00%

                Calendar Year Allowable Pension Costs                  $357,489     $2,934,100

           2004 Fiscal Year Allowable Pension Costs                    $398,310     $2,950,241     $3,348,551

                                                                                   Medicare Part
    Date                              Description                       "Other"         B            Total

January 1, 2005 Employee Pension Plan Allocable                       $1,732,727            $0
                Managerial Pension Plan Allocable                     $6,846,446      $698,604
                Employees' Retirement Income Pension Plan Allocable      $58,254      $677,201
                Managerial Retirement Pension Plan Allocable            $134,781    $1,683,622

                Total Calendar Year Allocable Pension Costs           $8,772,208    $3,059,427
                LOB* Percentage                                            5.93%        99.98%

                Calendar Year Allowable Pension Costs                  $520,192     $3,058,815

           2005 Fiscal Year Allowable Pension Costs                    $479,516     $3,027,636     $3,507,152
                                                                                                                                                Page 7 of 7
                                                                                                              Medicare Part
          Date                                Description                                      "Other"             B               Total

     January 1, 2006 Employee Pension Plan Allocable                                        $2,108,922                 $0
                     Managerial Pension Plan Allocable                                      $9,385,143           $782,280
                     Employees' Retirement Income Pension Plan Allocable                       $64,100           $704,038
                     Managerial Retirement Pension Plan Allocable                             $131,410         $1,715,615

                      Total Calendar Year Allocable Pension Costs                          $11,689,575         $3,201,933
                      LOB* Percentage                                                            6.64%             99.98%

                      Calendar Year Allowable Pension Costs                                   $776,188         $3,201,293

                 2006 Fiscal Year Allowable Pension Costs                                     $712,189         $3,165,674        $3,877,863

                                                                                                              Medicare Part
          Date                                Description                                      "Other"             B               Total

     January 1, 2007 Employee Pension Plan Allocable                                        $2,175,018                 $0
                     Managerial Pension Plan Allocable                                     $10,088,450           $803,908
                     Employees' Retirement Income Pension Plan Allocable                            $0                 $0
                     Managerial Retirement Pension Plan Allocable                             $142,385         $1,202,865

                      Total Calendar Year Allocable Pension Costs                          $12,405,853         $2,006,773
                      LOB* Percentage                                                            7.04%             98.57%

                      Calendar Year Allowable Pension Costs                                   $873,372         $1,978,076

                 2007 Fiscal Year Allowable Pension Costs                                     $849,076         $2,283,880        $3,132,956

   * Line of Business.

   ENDNOTES

 1/ The allocable Cost Accounting Standards (CAS) pension costs is the amount of pension cost that may be allocated for contract cost purposes. The 

    calculation of the Employee Pension Plan allocable pension cost appears in Appendix A.



 2/ The allocable Cost Accounting Standards (CAS) pension costs is the amount of pension cost that may be allocated for contract cost purposes. The 

    calculation of the Managerial Pension Plan allocable pension cost appears in Appendix B.



 3/ The total calendar year allocable pension costs is the total of segments cost from each pension plan.

 4/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB) percentage of each segment.
    We determined the LOB percentages based upon information provided by Wisconsin Physicians Service Insurance Corporation (WPS).

 5/ We computed the allowable Medicare pension cost as the calendar year (CY) pension cost multiplied by the Medicare LOB percentage. Pursuant to CAS
    412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare segment’s direct pension costs plus
    “Other” segment pension costs attributable to indirect Medicare operations.

 6/ The full year allowable pension costs for calendar year 1989 was calculated and claimed during the prior review (A-05-92-00048). Therefore, fiscal year
    (FY) 1990 only calculated allowable pension costs for January 1, 1990, through September 30, 1990.

 7/ We converted the plan year (January 1 through December 31) allocable pension costs to a fiscal year (FY) basis (October 1 through September 30). We
    calculated the FY pension costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

 8/ The allocable CAS pension costs is the amount of pension cost that may be allocated for contract cost purposes. The calculation of the Employees’ 

    Retirement Income Pension Plan allocable pension cost appears in Appendix C. This plan was established on August 1, 1998.



 9/ The allocable CAS pension costs is the amount of pension cost that may be allocated for contract cost purposes. The calculation of the Managerial 

    Retirement Pension Plan allocable pension cost appears in Appendix D. This plan was established on August 1, 1998.



10/ There were only 5 months of allocable pension costs for the Employees’ Retirement Income Pension Plan and Managerial Retirement Pension Plan; as a
    result, we calculated the FY 1998 allowable as 2/5 of the 1998 allocable pension costs.

11/ There were only 5 months of allocable pension costs for the Employees’ Retirement Income Pension Plan and Managerial Retirement Pension Plan; as a
    result, we calculated the FY 1999 allowable as 3/5 of the 1998 allocable pension costs.

12/ The Medicare Part A contract was terminated on December 31, 2002. The October through December 2002 allowable pension costs for Medicare Part A
    were included in the FY 2003 allowable pension costs.
                                                                                                         Page 1 of 4



                      APPENDIX F: AUDITEE COMMENTS 




CA#S/                                                                                             Medicare

                                                         December 2,2011


 .M.r. Patrick J. Cogley
 Rcgionallnspecwr (knera! for Audi! Services
 HHS, Orflee of Audit Services
 601 East 12'h Street. Room 0429
 Kansas City, .11'10 64106

                                                         RE: OlG Draft Report Number A-07-1 1-00369

 Dear Mr. Cogley:


 'fhis letter .is in response to Repon Number /\"(17-11-00369, the Draft Audit Report Review of
 Pension Costs Claimed for V,,'iseonsin Physicians Service Insurance C:orponttion for Fiscal Ycars
  1990 to 2007.

 WI'S coneurs with the audit report \Vith two exccptions, as f{)U()ws:

 I. 	 WI'S dIsagrees with the trcatnlcnt ofccrla.in participants as "Other" as opposed to "Direct" in
      Report Number ;\-07-11-00357 entitled Review (~rthe Pension SegmenTillioli .fi)}· Ihe
      MOl1op,eria/ i?miremellt Program.!br Michigan, fllhlOis, aild /yfinnesota Employees o/'
      Wisconsin Ph,)'sicialls ;Ciervice Insurance Corporatioll/br the Period aj'August f, 199810
      Jal1u{t/)' [,2008. Based on the appropriate treatment of these individuals, \VPS believes
      allowable cos! Ii)!' this phm \vouJd be increased by S88,OOO during the llUdit.

 2. 	 WI'S used a dif1erem method of allocating cost from the "Other" scgmenl to ,',,1.edicarc than
      was uscd in the <ludit by OIG. WPS believes that its method is reasonable and in fact .more
      accuratc than the method employed by OIG and should be the hasis for allocating costs to
      Medicare.Tbe lise of\VPS' allocation method would increase allowable cost during the
      audit pcriod by $322,000.

 In t()tal, WI'S asserts that ,lllowahlc cost during the audit should be increased hy S4l 0,000 from
 S24,403,212 10 $24,813,212. This would result in WPS needing to reduce its FACP pension
 costs by $524,847.

 Additional inform.atiol1 regarding these two exceptions is included in the remainder of this letter.




             V\/isr.onsJn Physidans SeNico iflsurance Corporation serving as a eMS C{)I~tfaclor
             P.O. aox 1787. Madison, WI 53701 • Phone COfJ·22.1·4711
                                                                                                         Page 2 of 4




1) Tn'lltmc!Lt of P:lrticipants as Din~c(' in Repor/ Number A·07·11·00357

In .I ()98. WPS acquired the Illinois and Michigan Medicare business from Hc rtilh Carc Service
Corporati on. In th e in itial years allcr this acq uisition, the data files llsed for (he actua rinl
valuation of thaI plan had some miss ing data, including cost center information that is used II)
identify whether pal1icipants should be in.e luded in the .M.c diearc segment. Tn the audit of that
plan (Ii'om report l\·07 "Il"O(357), 01(; excluded certain participants from thc !vlcdicarc Di rec t
segment. \VPS provided documentation showing tbat these participants should be included in
the Direct segment. WI'S' cost calculation includes these panic.ipants in the Direc t segment.

The 0](; auditors responded to WPS that making these changes would be immaterial to the asset
segmentation because these participants were later identified as Medicare cmployees at whi ch
time: OrG transferrcd asscts and liahiliti c~ to the 0.ifedicare segment, WPS agrees that the assets
and liabilities in the segmcntation report are not materiall y irnpaeled by thi s treatment. How ever,
exclud ing these parti cipants from the Medicare segment lowcrs ,1l!owilblc pcnsion cost by
S8S,OOO_

2) Allocation of "Other" Cost folVledkare

Us ing the premise l]J:ll "Other" segmen! is comprised of all the panicip,lnts not in the Med icare
segment, including ind.ireet areas, WPS' il.1location method differs from 01(;'s method in thrc:c
signiticam ways. WPS ;
    3 , 	 Uses lhe pension pay from the valuation data fi les by cost center as the basis fi.)r the
          allocation instead of overa ll. company payroll oo llars.
    b. 	 Uses the January allocation data to (klerminc th e percentage within each cost center to
          charge Medicare instead of Dccember's allocation dahL
    c Determines the 1vlcdicarc cost 011 a plan-hy-plan basis rather than using aH plans
          combined.

\VPS believes ollr mclhod improves the accurac y of the Mcdi.care costs cla illlcd from the "Other"
segment and recommends 01G adopt the same processes.

    fl.,Jl\·e O!.J2Q3li.ism.JHJY insread 9fovera/j pavroll
    The pension cost' is calculated based 011 the people th"t arc actually ill the pension plans .
    Likewise, the pension cost should be aJlocated based on those sumc people's wages that arc
    in the pension plans.

    The allocation method WI'S llses is consistent with CAS 413.50(c)(1) which Slates that ".
    the base to he used for allocat ing such costs shall be representative of the fac tors on which
    the pensi on beneli ts are bascd; .. .". Bccause thc alloc:nio ll ll1cthod llsed by WI'S is
    consistcnt wi th. the rcgulations within CAS, it should be cOll$ide,rcd as an acceptable metbod
    ofpcrfonnillg the allocation. 1fthe govcmmenl in tended. WI' S to allocate based on overall
    payroll and nOllhesalary and wages used in the annual va luation, the regulations should be
    written to state (hat the method of allocating pay related plans shaH be overall pay-toll.
                                                                                                    Page 3 of 4




In addition, \Ising the overall WPS payroll instead oCthe actual pension pay lh)11\ the
valuation reduces the accuracy of the IvledicaFc allocation of pension expense fbr the
!()Ilowing re,\SOl1s:
• 	 One of the WI'S pension plans is voluntary and not all eligible employees elect to
     participate in the plan, but their pay is included in the overall WPS payroll.
• 	 Some \VPS employee:; arC not eligible to panicipatc in the pension plans, such as part­
     tillle and summer employees, but their pay is included in the overall WPS payroll,
• 	 Because pension expense is calculated annually using census data as oCthe beginning of
     each year, the usc of overall payroll is inconsistent with the calculation of annual cost in
     situations where the size of the WPS organization is changing, Consistency wl)tlld be
     achieved by using the pension pay that was lIsed in the calculation of pension expense.
     For example, in calcndar year 2004 the non-Medicare portion of \VPS' business W)S
     expanding. Duc to the pension valuation being perfonned annually, the CAS Cost only
     reflects the population at the beginning of the year, but overall payroll would rcHen the
     growth and thus allocate 100 much expense to the uOll··Medicare portion of the busi.ness,
     In this particular example, the method employed by OtG results in an allocation to
     i\kdieare of 7% but the WPS recommended method results in an allocation to Medicare
     of 15%" whic.h more Hccurately reOect actual events.
• 	 Anm.w\ bonns paymenls ar<-' not included in pension P,IY hut arc included in total payroll
     causing a difference between the two allocation methods.
• 	 Beginning in 2008i2009 pcnsiQl1 plan Ch,lllgcs were implemented closing three plans to
     new p;lf(icipams and freezing benefits for certain participants, Continuing to allocate
     based on overall payroll will increasingly distort tile Medicare pension expense from the
     actual Ivledieare expense based on the actual participants continuing to earn benefits in
      the plans.

Using pension pay as the basis for allocation instead of overall payroll as the basis WOl! ld
increase allowable claimed pension cost by S59,OOO.

b,.. r/.~g/gIUHlJJ'J!.UQQ!!LQILtI([lg
Because the calculation of CAS allowable cost is based on a valuation as of January 1i\ of
each year, the pension expense allocation should be based on data as ofille same point in
rinle illld therefore be determined llStllg the January allocations, The OIG used the December
aliocations in allocating the pension expense.

\VPS believes the January "l1oeation is the consistent approach with the calculation of the
pension cost. Matching the January pension pay to the January allocation is the 1)10St
reasonable method to measure cost. FAR 31,201-3(a) defines reasonable as "A cost is
reasonable if, in its nature and amount, it docs not exceed that which would be inculTcd by a
prudent person in lhe conduct of competitive business."

Using the January allocations has the addcd benefit that Inr the September Interim
Expenditure Report (lER) and the December [;ina] Administrative Cost Proposal (FACP)
submissions, the tlmll Medicare pension amounts wiI! be included, The Dccember alloeatiO!1S
will not be detemlined until December's reporting is final, sometime during the fbllowing
                                                                                                     Page 4 of 4




   January and about a month after the FACP is due to C!vlS. Thcrd()re, if the Decernber
   allocations are used the FACP will not rellect the final pension costs as Jl should.

         January allocatjon dahl instead of December alh.lurtion dina would incrcas(~ allowable
   claimed pellsioll (()Sl by $ 174,{)OO.


   WPS recommends dcrermining the Ivkdicare pensioll expense plan by pl:ltl, rather than
   creating an aggregate alloeahle amount and an aggregate allocation percentage.            the
   pension pay within the valuation as the basis fot allocation, the aHocation Oil a p~an-by-plail
   basis is more accurat(~, simpler to pcritmn, nnd less prone to error than using a Gornbim:d
   percentage for aU plans.

   Allocating on a phHl,by-plan basis instiCad   or using all plans combined would increase
   allowable claimed pension cost by $89,000.

'flunk you tt)l' the opportunity to commen!. If you have any questions, please contact me at (608)
301-2639 or by e-mail at.U.;L..;.;.L!.-.......!!.i~l.!!.."t;c.-....c!L!

                                             Sincerely,


                                                 / fh~~.     &. ()J~
                                             tIl' d A. Adair
                                             Sen or Vice President
